                            CLOSEOUT FOR MOO050022

  On 4 May 2000, a program officer' told us of an allegation that the subject; the lead PI
 on an NSF 2-year continuing award: misrepresented information in his first-year's
 progress to NSF. The subject's FastLane progress report indicated that he spent more
 than 80 percent of the first-year's funds for the continuing award. Following the receipt
 of the progress report, the program officer approved the second-year's increment for the
 award. About a year later, the subject submitted a request for a change in scope for the
 continuing award. As a result of the request for change in scope, the program oficer
 learned that the subject had spent only about 30 percent of the first-year's funds, and
 none of the second-year's funds.

 We learned that in late March 1999, the program officer sent an e-mail to the subject
 requesting that he submit the fmt-year's progress report for the continuing award, an
 award that began on September 1, 1998. Because funds committed for future increments
 can not be obligated until NSF receives the annual progress report from the PI, the
program officer's request was intended to ensure that the subject's second-year increment
would be obligated before the end of the fiscal year, after which time it would be lost.
The subject displayed confusion about the program officer's request, stating that he
thought the program officer would not be requesting a progress report for an award that
had begun only about 7 months earlier. The program officer told the subject that he
likely would not get the next funding increment if he did not comply with the request for
the first-year's progress report for the continuing award. The subject.submitted the report
in early April and received his second-year's increment very soon afterwards.

As part of the FastLane progress report submission, PIS are asked a series of questions
under the section "Special Requirements." One of these questions is "[d]o you anticipate
that more than twenty percent of the funds under your NSF award will remain
unobligated at the end of the period for which NSF currently is providing support?" We
were informed that FastLane would not accept a progress report from any PI without an
answer to the question about unspent funds.

The subject said that he had answered "no" to the question about the anticipated
remaining unobligated funds. He explained that, soon after he received the award, he lost
two of the people who had been selected to work under the NSF award. Consequently,
he had initiated a search to replace both. In March 1999, just before he submitted his
project report, he thought he had found two individuals to replace the lost personnel.
However, shortly after he submitted the progress report, he learn'ed &at neither candidate




                                       Page 1 of 2
                          CLOSEOUT FOR MOO050022

accepted a position. We concluded that, given that the subject had ample reason to
"anticipate" that he would spend most of the funds at the time he submitted his progress
report, and given that the subject had submitted the progress report 5 months before the
end of the funding period, which provided him sufficient time to spend most of the
remaining funds, he answered the question appropriately.

This case is closed and no further action will be taken.

cc: Integrity, IG




                                       Page 2 of 2
